Office of Inspector General 


     Audit of NARA's 

 Vehicle Fleet Management 



    OIG Report No. 09-13 


         August 26, 2009 





National Archives and Records Administration
                                                                                   OIG Audit Report No. 09-13

Executive Summary:

The National Archives and Records Administration (NARA) Office of the Inspector General (OIG)
performed an audit ofNARA's Vehicle Fleet Management. The objective ofthe audit was to
determine if fleet vehicles are adequately utilized and fleet resources are properly controlled.

The purpose ofNARA's fleet includes transporting NARA employees who are conducting official
business, transporting official visitors (either government or non-government) from public
transportation areas (such as airports, train stations, etc.) to NARA facilities or between NARA
facilities, and transporting records. Driver services may be requested by the Archivist of the United
States, the Deputy Archivist of the United States, and Assistant Archivist for Administration. For
vehicles dedicated to specific units, such as NW, NR and NL, the use and request procedures are at
the discretion ofthe individual units. Use of government vehicles is restricted to trips where public
transportation is not readily available, or to carry heavy or bulky materials.

Our audit revealed opportunities exist to strengthen the effectiveness and control over
management ofNARA vehicles and put approximately $40,000 of funds to better use. We found
that (a) NARA vehicles are, in general, underutilized; (b) NARA has not established policies
with clearly defined utilization criteria related to the mission of a vehicle to ensure that decisions
to retain vehicles are based on a validated need; (c) NARA has not completed an assessment of
its fleet to determine whether they have the right number and type of vehicles; (d) NARA does
not have a central agency fleet manager with decision making authority over the agency's fleet
management program at all levels; (e) Controls to request a vehicle and track vehicle usage were
not designed to detect or prevent misuse or abuse; (f) Controls to ensure employees possess the
appropriate license are not designed to detect or prevent someone with a poor driving record or
suspended license from using a government vehicle; and (g) NARA's policies and procedures do
not cover key components of an effective fleet management program.

Without reasonably complete and accurate information on the total miles driven and the
frequency of vehicle use, fleet managers could not accurately assess vehicle utilization. While
NARA had already made some strides in gathering this information more is needed. Tracking
and monitoring utilization can help identify possible misuse or abuse of vehicles. Additionally,
fleet management attention is needed to ensure fleets are the right size and composition.

During the conduct of the audit additional internal controls were implemented by NAF. These
controls included reviewing General Services Administration (GSA) invoices! which has resulted
in cost savings, expanding global positioning system (GPS) usage and monitoring, tracking
mileage, fuel, and accident data. At All the fleet manager is now using a vehicle management
daily checklist and sign out logs for all vehicles. However, this approach has not been adopted
agency-wide.

We made 12 recommendations which, when implemented by management, will assist the agency
in enhancing controls over vehicle fleet management.


I GSA invoices include NARA-wide vehicle fleet costs related to monthly lease rates, cost per mileage rates, special
equipment costs and other costs to be reimbursed to GSA due to, for example, repairs or rentals.


                                                         1
                                    National Archives and Records Administration
                                                                                         OIG Audit Report No. 09-13

Background:

NARA leases vehicles from GSA at a monthly flat rate for each vehicle. The flat rate includes
payment for fuel, routine maintenance and repair. Each month agencies are required to report
current odometer readings of assigned vehicles. GSA Fleet uses the current odometer readings
as the basis for customer billing and to calculate proper preventive maintenance intervals for the
vehicles.

The various NARA locations all manage their own leases with GSA. GSA provides guidance on
the employees' responsibilities and maintenance and care of vehicles. GSA addresses topics
such as maintaining central records of license plates, reporting motor vehicle accidents, the size
of the leased vehicles, and minimum mileage to justify vehicle leases.

According to NARA guidance, use of government vehicles at NARA is limited to official business
only. Approved uses include transporting NARA employees who are conducting official business,
transporting official visitors (either government or non-government) from public transportation areas
(such as airports, train stations, etc.) to NARA facilities or between NARA facilities, and picking up
and delivering archival loans and accessioned records. Driver services may be requested by the
Archivist of the United States, the Deputy Archivist of the United States, and Assistant Archivist for
Administration. For vehicles dedicated to specific units, such as NW, NR and NL, the use and request
procedures are at the discretion of the individual units. Use of government vehicles is restricted to trips
where public transportation is not readily available, or to carry heavy or bulky materials. To requisition
a car, NARA staffmust complete an NA Form 5007 and send it through appropriate channels to
NARA's Facilities Management Branch (NAFM). In accordance with energy conservation procedures,
and in order to reduce the cost of transportation, individuals are encouraged to take public
transportation rather than use Government vehicles.

At the end of fiscal year (FY) 2008, NARA's vehicle fleet consisted of71 vehicles at various
locations with an annual cost of approximately $372,170. The two OIG vehicles were not
included in the scope of this audit. Table 1 shows the distribution of fleet vehicles by office.
Table 2 shows the types of vehicles in NARA's fleet.




              Number of Vehicles                     11          38      7          13       2      71

           Percent of Total Vehicles                15%      54%       10%        18%       3%     100%

             Number of Locations                     2           18                 10       1      31
        Average Number of Vehicles
                       location                      6           2       7      1            2


2   Office of Administration (NA) 

3   Office of Regional Records Services (NR) 

4   Office of Records Services - Washington (NW) 

5   Office of Presidential Libraries (NL) 

                                                             2
                                        National Archives and Records Administration
                                                                                  OIG Audit Report No. 09-13




During our audit, NARA's Property Management Officer (PMO) in NARA's Facilities and
Personal Management Division (NAF) served as NARA's agency fleet manger and had oversight
responsibility for NARA's vehicle fleet. The staffing of the Property Management Officer
position changed hands during our audit.

NAF is responsible for special messenger, trucking, and transportation services in the
Washington, DC, area. The Director of the Washington National Records Center (NWMW) is
responsible for operating a fleet of trucks to transport records to and from local Federal agencies.
For vehicles dedicated to specific units, the use and request procedures are at the discretion of
the individual units.

GSA Fleet uses a commercial purchase card for fuel, maintenance and repair services. U.S.
Government Fleet Services Cards are assigned specifically to each vehicle and should be used
only for that vehicle identified on the card. The dollar threshold for card purchases of
maintenance and repair services is $100, without prior Maintenance Control Center (MCC)
approval. GSA National MCC is responsible for authorizing required maintenance and repair
services of GSA Fleet vehicles. If maintenance and repair services are needed that exceed $100,
users must obtain pre-approval from the MCC prior to charging these services on the commercial
purchase card. GSA has a loss prevention team that electronically monitors purchase card
transactions and will reportedly alert the agency of any misuse, such as miscellaneous expenses
or fuel costs exceeding the vehicle tank capacity.

The preventive maintenance record for each vehicle is monitored electronically and service is
scheduled on the basis ofthe vehicle's age, mileage, and maintenance history. GSA notifies
NARA by mail, e-mail, fax or locally produced forms, when and what services are required.
GSA MCC authorization is required prior to work being performed. If prior MCC authorization
is not obtained, NARA will be billed for the repair cost.

GSA Fleet's Federal Automotive Statistical Tool (FAST) Data Center provides reports on agency
vehicle inventory, acquisition and disposal expenses, vehicle cost, miles driven, and fuel
consumption. This tool simplifies annual data reporting and regular monitoring of GSA Fleet
vehicles.




6   Sports Utility Vehicle (SUV)


                                                        3
                                   National Archives and Records Administration
                                                                             OIG Audit Report No. 09-13

Objectives, Scope, and Methodology:

The objective ofthe audit was to determine if fleet vehicles are adequately utilized and fleet
resources are properly controlled. Our audit focused on NARA fleet management activities. The
audit included onsite visits to College Park, MD (All), Washington DC (AI), Suitland, MD and
the National Personnel Records Center (NPRC) in St. Louis, MO. In accordance with generally
accepted government auditing standards, including the independence standard, the two assigned
Office ofInspector General (OIG) vehicles were not included within the scope of this audit.

We reviewed applicable sections ofthe Federal Management Regulations (FMR), GSA fleet
management guidance to identify criteria applicable to the management ofleased vehicles, and
NARA guidance pertaining to vehicle use. We interviewed vehicle users, fleet managers and the
agency fleet manager and transmitted questionnaires to several field offices.

We assessed GSA data to determine if vehicles were underutilized. We compared total miles
each vehicle was driven during FY 2008 with Federal minimum mileage standards. During the
audit, we relied extensively on GSA data to determine vehicles on hand as of September 2008
and average miles driven in FY 2008. To assess the reliability of this data, we confirmed the
accuracy of vehicle inventory information obtained from GSA's Fleet Management System and
fleet manager vehicle listings using NARA vehicle assignment and utilization records and
interviews with fleet managers. We tested the mileage reported by the fleet managers using
vehicle logs and odometer readings and reviewed these vehicle logs for potentially inappropriate
vehicle use. Based on these tests and assessments, we concluded the data were sufficiently
reliable to meet the audit objectives.

We reviewed GSA data and vehicle odometers for reasonableness of mileage reported to GSA
for vehicles at AI, AIl and NPRC. We also determined whether license plate and vehicle
identification information was consistent with GSA records. To assess physical security we
tested whether vehicles at AI, AIl and NPRC were locked.

Since we leased GSA vehicles, we did not evaluate preventive maintenance or fleet card
transactions. GSA maintains maintenance history records on its leased vehicles, is responsible for
notifying NARA when and what preventive maintenance is due and has to provide the maintenance
providers approval to perform maintenance or repairs over $100. NARA's fleet card transactions are
paid by GSA. GSA has a loss prevention team monitoring fleet card use for misuse and anomalies.

Our audit was performed from September 2008 through June 2009 and was conducted in
accordance with generally accepted government auditing standards. These standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit objectives.




                                                   4

                              National Archives and Records Administration
                                                                                      OIG Audit Report No. 09-13


Audit Findings
Potential Exits to Save NARA Funds Due to Underutilized Vehicles

Eighty-one percent ofNARA vehicles were underutilized in FY 2008, based on GSA minimum
use guidelines and utilization standards. Further, NARA had not performed a NARA-wide fleet
assessment as recommended by GSA in 2005. GSA's Bulletin FMR B-9, Documented
Structured Vehicle Allocation Methodology for Agency Fleets, provides guidance on the
development and maintenance of documented structured vehicle allocation methodologies for
agency fleets to identify the optimal allocation of the agency vehicles in terms of number and
configuration ofthose vehicles. NARA may be able return at least 10 of the 69 vehicles to GSA
and still meet their transportation needs by using other vehicles on hand. Eliminating 10 vehicles
                                                                                         7
(15 percent) would result in annual cost savings of approximately $31,500 in lease costs •

The following examples illustrate underutilized vehicles that may not be needed:
   • 	 Ofthe eight vehicles at AIl, one vehicle was only used 13 times in FY 2008 and 

       another vehicle only 31 in FY 2008 based on vehicle sign out logs. 

   • 	 A region has one heavy duty truck averaging 109 miles a month and a minivan 

       averaging 206 miles a month. Because the region needs a heavy duty truck only 

       occasionally, the region should consider renting a heavy duty truck on an as 

       needed basis. 


The chart below assesses and analyzes NARA vehicle fleet usage and illustrates that NARA
vehicles are extremely underutilized. Specifically, chart 1 shows the average annual mileage for
15 light duty and general purpose vehicles used by NA, NR and NW compared to GSA's
minimum use standards. Chart 1 reveals that only seven out of these 15 vehicles are adequately
used based on mileage. Chart 2 shows the average annual mileage for 23 passenger vehicles
used by NA, NL and NW compared to GSA's minimum use standards. Chart 2 depicts that only
two out of 23 vehicles are adequately used based on mileage. Chart 3 shows the average annual
mileage for 26 passenger vehicles used by NR compared to GSA's minimum use standards.
Chart 3 shows that only two out of 26 vehicles are adequately used based on mileage. Chart 4
shows the average annual mileage for 5 heavy duty vehicles compared to GSA's minimum use
standards. Chart 4 reveals that only two out of 5 vehicles are adequately used based on mileage.




7   Average lease cost per vehicle is $3,043.30.


                                                            5
                                       National Archives and Records Administration
                                                                                            OIG Audit Report No. 09-13

  Chart 1
                              Average Annual Mileage for Light Duty/General Purpose Vehicles
                                                         FY 2008




14000



12000                                                                         10,000 Miles - Minimum
                                                                              Annual Use Standards for
                                                                              Light Duty/General
10000    -------

                                                                                                         IlDAverage
                                                                                                            Annual
 8000                                                                                                       Mileage


 6000



 4000




          NA       NR   NR     NR     NR    NR    NR    NR   NR     NR   NR    NW    NW     NW     NW

        Chart 2               Average Annual Mileage for Passenger Vehicles in NA, NL and NW
                                                          FY 2008




14000
               12,000 Miles - Minimum
               Annual Use Standards for
               Passenger Vehicles
12000



10000



 8000                                                                                                    IlDAverage 

                                                                                                            Annual 

                                                                                                            Mileage 


 6000



 4000



 2000




         NA NA NA NA NA NA NA NA NA NL NL NL NL NL NL NL NL NL NL NL NL NL NW




                                                                6
                                           National Archives and Records Administration
                                                                                                                                                                    OIG Audit Report No. 09-13 


   Chart 3 

                                                         Average Annual Mileage for Passenger Vehicles in NR 

                                                                              FY 2008 





 16000 




 14000 
                12,000 Miles - Minimum
                        Annual Use Standards for
                        Passenger Vehicles
 12000     - - - - - - -- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -- - - - - ----­   - - - - - - - - - -- -- - - -   - - .­



 10000 


                                                                                                                                                                                               EJAverage
                                                                                                                                                                                                 Annual
  8000 

                                                                                                                                                                                                 Mileage


  6000 



            s
  4000 


                                                                                                                                           it
  2000 




      0
                                                                                                        p                    "
                                                                                                                                                            I
                        II 

           NRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNRNR



   Chart 4 
                                                    Average Annual Mileage for Heavy Duty Vehicles 

                                                                                   FY 2008 

10000 



 9000 



 8000 



 7000 



 6000 



 5000 
                                                                                                                                                                                      EJAverage 

                                                                                                                                                                                               Annual 

                                                                                                                                                                                               Mileage 

 4000 



 3000 



 2000 



 1000 



    0

                       NR                                   NR                                   NA                                  NW                               NW




                                                                                                                  7

                                                                     National Archives and Records Administration
                                                                               OIG Audit Report No. 09-13

 During the conduct of this audit we identified that NARA has been paying approximately
 $120.50 extra a month for each of the two vehicles with a law enforcement package even though
 the law enforcement capabilities are not needed to meet the mission ofthe vehicle. This
 condition has existed since June 2008 for one vehicle and since April 2004 for the other vehicle
 at an estimated cost of$8,000. These law enforcement vehicles were not Office ofInspector
 General law enforcement vehicles. One vehicle is located in the Great Lakes Region, Chicago,
 IL, and the other at All. The Great Lakes Region had no knowledge oftheir vehicle being
 considered a law enforcement vehicle prior to this audit and did not request a law enforcement
 vehicle or a sedan with special services. However, the Great Lakes Region accepted the GSA
 offer of a mid-size sedan with a special services rate. All did not provide justification in
 requesting a mid-size, special services vehicle. During the course of the audit we informed
 NARA management of these unjustified extra costs and All has since replaced its vehicle. When
 NARA leases vehicles from GSA, NARA agrees to GSA's Vehicle Replacement Standards
 which state vehicles will be considered for replacement at a minimum after three years and
·36,000 miles. The ultimate decision to replace or retain any given vehicle lies with the GSA
 Fleet Service Representative (FSR). NAF is now reviewing all NARA requests for vehicles and
 reviewing the justification to ensure the size and type of vehicle is adequate to meet the needs of
 NARA.

Underutilization occurred because NARA has not established policies with clearly defined
utilization criteria related to the mission of a vehicle to ensure decisions to retain vehicles are
based on a validated need. NARA has not completed an assessment of its fleet to determine
whether they have the right number and type of vehicles. During the course of our audit NARA
began gathering and assessing fleet data, costs and mileage, NARA-wide to track trends and
identify unusual activity.

Utilization criteria include not only number of miles traveled but may also include number of
trips, number of passengers served, hours in use, and downtime. These measures support the
need for a vehicle when mileage criteria are not appropriate. Clearly defined utilization criteria
include an assigned value in order to measure and assess. Utilization criteria may be different
for individual vehicles based on how that vehicle is used to support the mission ofthe agency.

GSA's Bulletin FMR B-9, Documented Structured Vehicle Allocation Methodology for Agency
Fleets, provides guidance on the development and maintenance of documented structured vehicle
allocation methodologies for agency fleets to identify the optimal allocation of the agency
vehicles in terms of number and configuration of those vehicles.

In seeking the cause for the conditions cited in this finding section we were advised by a
management official that NARA's "nationwide operations are decentralized." The Property
Management Officer has little control over vehicle budgets and allocations; and while they
provide suggestions on implementing new policy, they report they feel they have little power in
enforcing the policy. The prior PMO provided no oversight of the motor vehicle operations.

GSA suggests that each agency have an Agency Fleet Manager with decision making authority
over the agency's fleet management program at all levels. An Agency Fleet Manager has a
clearly defined role in the overall management of the agency's fleet management program and is



                                                     8

                                National Archives and Records Administration
                                                                              OIG Audit Report No. 09-13



familiar with their agency's mission. Fleet management attention is needed to ensure that fleets
are the right size and composition.

As a result of all the above issues, NARA cannot ensure vehicles are the right size and
composition to meet NARA's mission and be cost-efficient. Eliminating 15 percent of vehicles
would result in annual cost savings of approximately $31,500 in lease costs. NARA spent over
$8,000 in law enforcement special packages that were not needed. Savings can also be realized
by changing the composition of the fleet and leasing vehicles that are less expensive and less
costly to operate and maintain. GSA guidance includes many targets of opportunity which could
help reduce NARA's fleet costs, for example:

   • 	 Eliminate vehicles from the fleet that are not being properly utilized or that are
       unnecessary to meeting your agency's mission. Consider not only the vehicle's monthly
       mileage, but also the time a vehicle is used.
   • 	 Increase fleet 

       utilization 

       through pooled 

       use of vehicles 

       rather than 

       numerous 

       vehicles assigned 

       to individuals or 

       single 

       departments. 

   • 	 Encourage the 

       use oflocal 

       modes of 

       transportation 

       such as taxis, 

       public transit, 

       privately owned 

       vehicles 

       (POV's), shuttle 

       services, and 

       rental vehicles. 

   • 	 Downsize to vehicles that will still enable your drivers to perform their duties. The
       acquisition of 4 x 4 sport utility vehicles should be carefully analyzed to investigate
       whether or not a smaller 4 x 2 may be more appropriate.
   • 	 Justify maintaining medium and heavy vehicles that have very low utilization (time and
       mileage). Consider pooling these vehicles for centralized use or partner with other
       agencies to lease the equipment on an as needed basis.
   • 	 Use of GSA's new short-term rental program. GSA Fleet offers the Short Term Rental
       Program (STR) to customers needing replacements for, or additions to, their current
       fleet. The STR program can help accomplish agency missions by providing the right
       vehicles for seasonal work, special events, or surge related requirements.


                                                    9
                               National Archives and Records Administration
                                                                              OIG Audit Report No. 09-13




       Recommendations

       The Assistant Archivist for Administration should direct NAP to:

       1. 	 Work with fleet managers to clearly define utilization criteria related to the mission of
            each vehicle.

       2. 	 Establish procedures to perform periodic assessments of the number and type of
            vehicles in the NARA fleet using these criteria.

       3. 	 Right-size NARA's vehicle fleet and provide written justification for retaining any
            underutilized vehicles. NAP should evaluate vehicle utilization and eliminate
            vehicles that do not meet the minimum guidelines or alternate utilization factors; and
            NAP may pool vehicles to fully utilize them whenever feasible.


       4. 	 Use GSA's new Short Term Rental Program (STR) in meeting vehicle needs for
            accomplishing NARA's mission.

       5. 	 Appoint a central agency fleet manager with decision making authority over the
            agency's fleet management program at all levels. The central agency fleet manager
            should be responsible for establishing written policies, monitoring effectiveness of
            policies, collecting and analyzing fleet data and looking for opportunities to improve
            fleet management.

       Management Response:

       The Acting Assistant Archivist for Administration concurred with the recommendations.
       However on recommendation #4 management stated that "NAP will conduct an analysis
       of the STR on a more long term basis ...and determine ifit is more cost effective."


Internal Controls over Vehicle Utilization Were Lacking

NARA's policy does not establish appropriate controls over vehicle use. This occurred because
the prior PMO did not provide oversight of motor vehicle operations. GSA's Guide to Federal
Fleet Management states a Federal Fleet Manager should ensure that the Agency has established
procedures to monitor and control the use of its vehicles at all times. Ineffective controls
increase the risk of vehicle misuse and abuse. Without reasonably complete and accurate
information on the total miles driven and the frequency of vehicle use, fleet managers can not
accurately assess vehicle utilization.

During our review we determined controls to request a vehicle and track vehicle usage were not
designed to detect or prevent misuse or abuse.


                                                   10
                               National Archives and Records Administration
                                                                              OIG Audit Report No. 09-13



   • 	 In October 2008 a passenger vehicle (tag # ending in 1785) at All was signed out 10
       times and daily use recorded 10 times. However, the fleet manager could only provide
       support for 6 requests and only one had evidence ofthe necessary supervisor approval.
       No requests were documented for the other 4 times the vehicle was used.
   • 	 In FY 2008, one vehicle (tag # ending in 4938) at All was used thirteen times based on
       the sign out log,
       however the
       daily use log was
       only filled out
       four times.
   • 	 There were gaps 

       in accounting for 

       mileage on daily 

       use logs. 

   • 	 Three vehicles at 

       All did not use 

       daily use logs 

       and did not have 

       GPS units. 

   • 	 Vehicles at AI 

       and All that have 

       GPS units were 

       not monitored by 

       the fleet manager 

       using the GPS 

       monitoring tools until mid-January 2009. 

   • 	 Daily use logs did not include sufficient information to accurately evaluate vehicle
       utilization.
   • 	 Five regional offices out of twelve did not have a method, i.e. daily use logs, to account
       for mileage.
   • 	 Pacific Alaska Region (NRI) - Seattle acknowledges in its FY 2008 Federal Managers'
       Financial Integrity Act Assurance Statement that there are no controls in place to prevent
       the unauthorized use or theft of GSA vehicles.

A management official stated that the prior PMO provided no oversight of motor vehicle
operations.

GSA's Guide to Federal Fleet Management states a Federal Fleet Manager "should ensure that
the Agency has established procedures to monitor and control the use of its vehicles at all times."
In addition, "the Fleet Manager must maintain assignment and dispatch records to ensure
necessary control and to provide for utilization review." Also, the Fleet Manager should
"establish processes to monitor and measure vehicle utilization." We found that NARA has not
established procedures NARA-wide to monitor and control the use of its vehicles at all times.




                                                   11 

                               National Archives and Records Administration
                                                                             OIG Audit Report No. 09-13

Ineffective controls increase the risk of vehicle misuse and abuse. Without reasonably complete
and accurate information on the total miles driven and the frequency of vehicle use, fleet
managers could not accurately assess vehicle utilization. Tracking and monitoring utilization can
help identify possible misuse or abuse of vehicle.

Since January 2009, several additional controls were implemented. Controls included reviewing
and approving GSA invoices, expanding GPS usage and monitoring, and analyzing cost,
mileage, fuel, and accident data. At All the fleet manager is now using a vehicle management
daily checklist and sign out logs for all vehicles.

       Recommendations

       The Assistant Archivist for Administration should direct NAF to:

       6. 	 Establish procedures, NARA-wide, to ensure supervisors of persons requesting to use
            a NARA vehicle sign the NA Form 5007 certifying the purpose of using the vehicle is
            for official government use and indicates on the NA Form 5007 that the supervisor
            checked to ensure the employee operating the vehicles possess the appropriate
            license.

       7. 	 Establish procedures, NARA-wide, to monitor and control the use of its vehicles at all
            times (i.e., daily use logs, etc.). Assignment and dispatch records must also be
            maintained to ensure necessary control and to provide for utilization review.

       8. 	 Establish procedures, NARA-wide, to monitor and measure vehicle utilization
            criteria. For example, NAF should randomly test locations to ensure utilization
            criteria of vehicles are appropriate. NAF should ensure appropriate measures are
            included on the daily log or similar form of control to ensure appropriate monitoring
            and measuring of vehicle utilization.

       9. 	 Ensure vehicles with GPS units are periodically monitored for unusual activity and
            unsafe driving behavior. For example,
            • 	 Monitor for (set up edits and rules):
                • 	 activity on weekends or off-hours;
                • 	 long parked times;
                • 	 unsafe handling, such as speeding;
            • 	 Identify routine stops as landmarks, narrowing activity to review for unusual
                activity.

       Management Response:

       The Acting Assistant Archivist for Administration concurred with the recommendations.




                                                  12
                              National Archives and Records Administration
                                                                              OIG Audit Report No. 09-13


Vehicle Safety Controls Could be Improved

NARA has not established controls to ensure periodic review of the motor vehicles records of
Federal employees authorized to operate government vehicles. This occurred because there was
limited oversight of motor vehicle operations resulting in NARA not addressing applicable
standards promulgated in the GSA Guide to Federal Fleet Management. As a result, NARA has
an increased risk of allowing unauthorized and/or unsafe drivers to use NARA vehicles.

GSA's Guide to Federal Fleet Management states, "Organizations should check the MVR of
each new employee to discover whether he or she has a history of accidents, speeding tickets, or
any other violations. Every-other-year follow-ups will also assist in identifying problem-prone
drivers." In addition, "A vehicle operator's driving record should be checked...after an
                                                                          accident." "After
                                                                          receiving proper release
                                                                          from the individual,
                                                                          Fleet Managers may use
                                                                          either a) the National
                                                                          Highway Traffic Safety
                                                                          Administration,
                                                                          National Drivers
                                                                          Registry; b) private
                                                                          companies; or c)
                                                                          perform driver record
                                                                          checks personally."

                                                                        The Office of Personnel
                                                                        Management has
                                                                        established
                                                                        requirements governing
                                                                        the qualification and
                                                                        identification of
Government-furnished vehicle operators. These requirements may be found in 5 CFR Part 930,
which states in part agencies must have procedures to identify employees who are authorized to
operate Government-owned or leased motor vehicles. Such procedures must provide for
adequate control of access to vehicles and periodically review the competence of Federal
employees to operate such vehicles safely.

NARA does not obtain motor vehicle records of Federal employees authorized to operate
government vehicles to review for a history of accidents, speeding tickets, or other violations.
The purpose of checking motor vehicle records is to help reduce or prevent accidents, fatalities,
and injuries by restricting use ofNARA vehicles to safe drivers and drivers with the appropriate
driver's license.




                                                   13
                               National Archives and Records Administration
                                                                             OIG Audit Report No. 09-13

        Recommendations

       The Assistant Archivist for Administration should direct NAF to:

       10. Establish procedures, NARA-wide, to check the motor vehicle records of each
           employee with a commercial drivers license at least every other year to discover
           whether the driver has a history of accidents, speeding tickets, or any other violations
           and take appropriate action based on 49 CFR for disqualified drivers.

       11. Establish procedures, NARA-wide, to randomly check the motor vehicle records
           for a sample of employees whose position is a motor vehicle operator or whose
           duties include frequent driving ofNARA vehicles to discover whether the driver
           has a history of accidents, speeding tickets, or any other violations and take
           appropriate action if poor driver records are found, such as not allowing drivers
           with poor driving records to use NARA vehicles.

       Management Response:

       The Acting Assistant Archivist for Administration concurred with the
       recommendations.
       However on recommendation #11 management stated that "further study is needed to
       make a decision on whether we have legal authority to do random checks of motor
       vehicle records of routine users ofNARA's government vehicles. NA has asked
       NGC to review this issue."


Vehicle Security Controls Could be Improved

NARA vehicles were found to be improperly secured. This occurred because drivers did not
always lock vehicles upon returning vehicles and no vehicle checks were routinely performed
to identify this failing. GSA's Federal Management Regulations states drivers and fleet
managers are responsible for locking unattended vehicles. Unlocked vehicles increase the
risk of theft or damage to the vehicle.

Four out of eight vehicles were unlocked in the AIl parking garage. GSA states drivers and
fleet managers are responsible for locking unattended vehicles. FMR 102-34.245 provides
that Government-owned, -rented, and -leased motor vehicles of an Agency should be stored
so as to provide reasonable protection from pilferage or damage. GSA's Guide to Federal
Fleet Management states "In the interest of economy, use open storage whenever practicable
and feasible. However, the Agency's Fleet Manager should determine what is 'practicable or
feasible,' based upon special requirements at respective locations. Of course, all unattended
Government-owned or -leased motor vehicles should be locked, unless they are stored or
parked in a closed building or enclosure."




                                                  14
                              National Archives and Records Administration
                                                                             OIG Audit Report No. 09-13




In response to our audit, NAF implemented a vehicle management daily checklist at All.
The fleet manager and his staff must verify each day that all vehicles have been returned and
all vehicle doors are locked. This security issue was identified and addressed during the
conduct of the audit; therefore no recommendation is forthcoming specific to All; however
similar procedures should be implemented at all NARA facilities with government vehicles

        Recommendations

       12. The Assistant Archivist for Administration should direct NAF to establish
       procedures, NARA-wide, to ensure periodic inspections of the security and storage of
       vehicles.

       Management Response:

       The Acting Assistant Archivist for Administration concurred with this 

       recommendation. 





                                                  15
                              National Archives and Records Administration
-   .

                                                                                                                  1

                        National Archives and Records Administration
                                                                                              8601 Adelphi Road
                                                                             College Park, Maryland 20740-6001


    Date:      August 19, 2009

    To:        OIG

    From:      NA

    Subject:   OIG Draft Report No. 09-13, Draft Audit ofNARA's Vehicle Fleet Management


               Thank you for the opportunity to review and comment on this draft audit report. We
               appreciate the efforts of your staff and all parties associated with the audit process.

               While we concur with the majority of the 12 recommendations, we also appreciate the
               auditor's willingness to work with the language for recommendations 6 and 9 and agree with
               the adjusted language as follows:

                      Recommendation #6 - Establish procedures, NARA-wide,to ensure supervisors of
                      persons requesting to use a NARA vehicle sign the NA Form 5007 certifying the
                      purpose of using the vehicle is for official government use and indicates on the NA
                      Form 5007 that the supervisor checked to ensure the employee operating the vehicles
                      possess the appropriate license.

                      Recommendation #9 - Ensure vehicles with GPS units are periodically monitored for
                      unusual activity and unsafe driving behavior. For example,

                      • 	 Monitor for (set up edits and rules):
                          o 	 activity on weekends or off-hours;
                          o 	 long parked times; and
                          o 	 unsafe handling, such as speeding.

                      • 	 Identify routine stops as landmarks, narrowing activity to review for unusual
                          activity.

               We also concur with the intent of Recommendation 4:

                      Use GSA's new Short Term Rental Program (STR) in meeting vehicle needs for
                      accomplishing NARA's mission.

               However, NAF will conduct an analysis ofthe STR on a more long term basis. The two times
               we have used the program since this audit it has proven to be quite expensive. We will
               compile historical data as we use the program more and determine if it is more cost effective.




                                      NARA 's web site is http://www.archives.gov
..


     Lastly, recommendation 11 states:

            Establish procedures, NARA-wide, to randomly check the motor vehicle records for a
            sample of employees whose position is a motor vehicle operator or whose duties
            include frequent driving ofNARA vehicles to discover whether the driver has a
            history of accidents, speeding tickets, or any other violations and take appropriate
            action if poor driver records are found, such as not allowing drivers with poor driving
            records to use NARA vehicles.

     NA concurs with the intent of this recommendation. However, further study is needed to
     make a decision on whether we have legal authority to do random checks of motor vehicle
     ~ecords of routine users ofNARA's government vehicles. NA has asked NGC to review this
     Issue.

     If you have any questions concerning these comments, please contact me via e-mail or
     telephone, Jennifer Noell (NAS) at 301-837..;1739.



                JUDSON
             t Archivist for Administration




     OFFICIAL FILE: NAS
     READING FILES: NA, NAF, NAS, NPOL
     NAS: JNoell; 8-19-09
     h:/Audits/OIG 09-13 Vehicle Fleet Management/OIG Draft Response Vehicle Fleet.doc
     File Code: 1207-2




                                 NARA's web site is http://www.archives.gov
